OFFICE OF INSPECTOR GENERAL

Audit of USAID/Guyana’s
Progress in Implementing the
President’s Emergency Plan for
AIDS Relief
AUDIT REPORT NO. 1-504-06-005-P
May 25, 2006




SAN SALVADOR, EL SALVADOR
            Office of Inspector General



May 25, 2006

MEMORANDUM

TO:              USAID/Guyana Director, Fenton Sands

FROM:            Regional Inspector General/San Salvador, Timothy E. Cox “/s/”

SUBJECT:         Audit of USAID/Guyana’s Progress in Implementing the President’s
                 Emergency Plan for AIDS Relief (Report No. 1-504-06-005-P)


This memorandum transmits our final report on the subject audit. We have carefully
considered your comments on the draft report in finalizing the audit report and have
included your response in Appendix II of the report.

The report contains nine recommendations intended to improve implementation of the
Emergency Program in Guyana. Based on your comments and documentation
provided, final action has been taken on Recommendation No. 8 and management
decisions have been reached for Recommendation Nos. 1, 2, 3, 4, 5 and 7.
Management decisions for Recommendation Nos. 6 and 9 can be recorded when
USAID/Guyana has developed a firm plan of action, with target dates, for implementing
the recommendations. In this regard, please advise us in writing, within 30 days, of the
actions planned to implement these recommendations. Determination of final action on
the recommendations currently without final action will be made by the Audit
Performance and Compliance Division (M/CFO/APC).

I appreciate the cooperation and courtesy extended to my staff throughout the audit.




 U.S. Agency for International Development
 Regional Inspector General/San Salvador
 Unit 3110; APO, AA 34023
 Tel (503) 2228-5457 - Fax (503) 2228-5459
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objectives ................................................................................................................ 4

Audit Findings ................................................................................................................. 5

Did USAID/Guyana’s Emergency Plan prevention and care activities progress as
expected towards the planned outputs in its grants, cooperative agreements and
contracts?.......................................................................................................................... 5

     Many Planned Outputs Were Not Achieved................................................................ 6

     Performance Targets Were Inconsistent..................................................................... 9

     Results Reported by FHI and Sub-Grantees Were Inaccurate
     or Unsupported ......................................................................................................... 11

     Delays in Providing Advances to Sub-Grantees Impeded
     Program Activities ..................................................................................................... 16

     Several Sub-Grantees Suffered from Weak Financial Management Practices......... 19

     Program Implementers Did Not Have Exit Strategies ............................................... 20

Did USAID/Guyana’s Emergency Plan treatment activities progress as expected
towards the planned outputs in its grants, cooperative agreements and contracts? ...... 22

     Procurement of Antiretroviral Drugs Was Delayed ................................................... 22

Appendix I – Scope and Methodology ........................................................................ 24

Appendix II – Management Comments ....................................................................... 26

Appendix III – Comparison of Planned, Reported, and Actual
Prevention and Care Outputs for Fiscal Year 2005.................................................... 37

Appendix IV – Local Organizations Implementing Emergency Plan
Activities in Guyana...................................................................................................... 40
SUMMARY OF RESULTS
As part of a worldwide audit of certain USAID-financed activities under the President’s
Emergency Plan for AIDS Relief, the Regional Inspector General/San Salvador
performed an audit of USAID/Guyana’s progress in implementing the President’s
Emergency Plan for AIDS Relief to answer the following questions:

•   Did USAID/Guyana’s Emergency Plan prevention and care activities progress as
    expected towards the planned outputs in its grants, cooperative agreements and
    contracts?

•   Did USAID/Guyana’s Emergency Plan treatment activities progress as expected
    towards the planned outputs in its grants, cooperative agreements and contracts?

The Emergency Plan’s goal in Guyana is to prevent 14,000 HIV infections, provide
palliative care and support services to 9,000 persons infected or affected by HIV/AIDS,
and provide treatment to 1,800 HIV-infected people.           During fiscal year 2005,
USAID/Guyana obligated $8.8 million and spent $6.3 million in support of the
Emergency Plan for prevention, palliative care, and treatment activities.

With respect to prevention and care activities, of the 21 USAID-financed outputs listed in
the FY 2005 country operational plan, the program achieved or exceeded 5 planned
outputs, mostly in the areas of prevention of mother-to-child transmission and voluntary
counseling and testing. These areas were a focus of attention during the first two years
of the program, as was scaling up activities by bringing nine sub-grantees into the
program in 2004 and bringing ten new sub-grantees into the program in 2005. However,
13 planned outputs were not achieved and progress toward achieving 3 outputs could
not be fully evaluated because targets were not established or because sufficient
information on actual accomplishments was not available. (See page 5 and Appendix
III.)

The audit also disclosed that program performance targets were not consistently
described in program documents (page 9), that reported information on actual
achievements was inaccurate or unsupported (page 11), that delays in providing
advances to sub-grantees impeded program activities (page 16), and that several
sub-grantees suffered from weak financial management practices (page 19). In addition,
while management attention to date has been focused on expanding program activities,
progressively more attention needs to be placed on building a basis for sustaining
program activities after the cessation of USAID funding (page 20).

Regarding treatment activities, the audit showed that activities had not progressed as
expected due to delays in procuring antiretroviral drugs and establishing a supply chain
management system that would forecast demand for ARV drugs and trigger
procurement actions in time to meet the demand. (See page 22.)

The report contains nine recommendations to help USAID/Guyana improve program
performance and the quality of services provided to program beneficiaries, more clearly
communicate performance indicators and targets, better ensure the quality of reported
information on program accomplishments, better ensure that sub-grantees have


                                                                                        1
sufficient liquidity to finance program activities, strengthen the financial management
practices of sub-grantees participating in the program, and begin to build a basis for
sustaining program activities after the cessation of USAID funding.

While USAID/Guyana agreed with most of the recommendations in our draft report, the
Mission disagreed with some of the conclusions and requested some revisions to the
report. We carefully considered USAID/Guyana’s comments and made revisions where
appropriate in finalizing the report. Our evaluation of management comments is provided
after each finding and recommendation in the report. USAID/Guyana’s comments in their
entirety are included in Appendix II.




                                                                                     2
BACKGROUND
The President’s Emergency Plan for AIDS Relief (Emergency Plan) is a $15 billion, five-
year program that provides $9 billion in new funding to accelerate the delivery of
HIV/AIDS-related prevention, care, and treatment services in 15 focus countries,
including Guyana. The Emergency Plan also allocates $5 billion over five years to
bilateral programs in more than 100 countries and increases the U.S. pledge to the
Global Fund to Fight AIDS, Tuberculosis, and Malaria by $1 billion over five years. The
Emergency Plan’s five-year goal is to prevent 7 million HIV infections, provide palliative
care to 10 million people affected by HIV/AIDS, and treat 2 million HIV-infected people.
The Department of State’s Global AIDS Coordinator directs the Emergency Plan.

Guyana has a population of 751,000 people of whom 18,000 are thought to be infected
with HIV/AIDS. The United Nations Program on HIV/AIDS estimates a national HIV
prevalence rate among adults of 2.5 percent and among pregnant women of 3.8 percent.
However, higher HIV prevalence rates were reported for some high-risk groups such as
commercial sex workers (31 percent) and gold miners (6 percent). More than half the
population of Guyana is under the age of 24, and young people are especially vulnerable
to infection. Almost 75 percent of reported cases of HIV/AIDS are among people 19-35
years old.

The Emergency Plan’s goal in Guyana is to prevent 14,000 HIV infections, provide
palliative care and support services to 9,000 persons infected or affected by HIV/AIDS,
and provide treatment to 1,800 HIV-infected people. The strategy for achieving the goal
focuses on strengthening the capacity of the national health care system, as well as
non-governmental organizations interested in public health issues, to deliver effective
and expanded HIV/AIDS prevention, palliative care, and treatment services. In Guyana,
the Plan is implemented collaboratively by a country team that is lead by the
Ambassador and includes representatives from USAID, the Centers for Disease Control
and Prevention, the Peace Corps, the Department of Labor and the Department of
Defense.

USAID/Guyana is one of the main U.S. Government agencies supporting the Emergency
Plan. USAID/Guyana provides contracts, grants, and cooperative agreements totaling
$9.5 million out of $15.8 million in funding provided by the program in fiscal year 2005.
During fiscal year 2005, USAID/Guyana had obligated $8.8 million and spent $6.3 million
in support of the Emergency Plan. USAID finances the following activities:

•   Prevention (primarily prevention of mother-to-child transmission of the HIV virus,
    promotion of abstinence and faithfulness, and promotion of other prevention
    initiatives).

•   Care (provision of voluntary counseling and testing services and palliative care
    services that help improve the quality of life of individuals suffering from HIV/AIDS,
    and their families and support for HIV/AIDS-affected orphans and vulnerable
    children).




                                                                                        3
•   Treatment (procurement of pediatric and second-line1 antiretroviral drugs for both
    children and adults and implementation of supply chain management system that will
    better ensure a reliable supply of antiretroviral drugs).

USAID/Guyana-funded Emergency Plan activities are implemented through a
memorandum of understanding with the Government of Guyana’s Ministry of Health and
through two contracts:

•   The first contract is with Family Health International (FHI). FHI, in collaboration with
    its subcontractors (Cicatelli Associates Inc., Howard Delafield International,
    Management Sciences for Health, and the Caribbean Conference of Churches),
    provides technical direction to a network of 19 local non-governmental organizations
    and faith-based organizations who provide services to program beneficiaries. Nine
    of these local organizations were involved in the Emergency Plan since 2004, and
    ten organizations started implementing Emergency Plan activities in July 2005. FHI
    also helps the Ministry of Health implement counseling and treatment activities.
    (Appendix IV lists the 19 local entities participating in the program and the activities
    they implement.)

•   The second contract is with Maurice Solomon, a local accounting firm. Maurice
    Solomon entered into sub-grants with the 19 non-governmental organizations and
    faith-based organizations described above to formalize their participation in the
    Emergency Plan.        Maurice Solomon advances USAID funds to the local
    organizations, obtains liquidations that show how USAID funds were used, and
    provides financial and administrative management assistance to the organizations.

The program began in October 2004, and is scheduled to end by September 30, 2008

AUDIT OBJECTIVES
As part of a worldwide audit directed by the Office of Inspector General’s Performance
Audits Division, the Regional Inspector General/San Salvador audited USAID/Guyana’s
progress in implementing the President’s Emergency Plan for AIDS Relief to answer the
following questions:

•   Did USAID/Guyana’s Emergency Plan prevention and care activities progress as
    expected towards the planned outputs in its grants, cooperative agreements and
    contracts?

•   Did USAID/Guyana’s Emergency Plan treatment activities progress as expected
    towards the planned outputs in its grants, cooperative agreements and contracts?




1 Second line antiretroviral drugs are administered to patients who do not respond to treatment
  with less expensive first-line antiretroviral drugs.


                                                                                             4
AUDIT FINDINGS
Did USAID/Guyana’s Emergency Plan prevention and care
activities progress as expected towards the planned outputs in
its grants, cooperative agreements and contracts?

Based on our review of 21 activities listed in the FY 2005 country operational plan,2
USAID/Guyana’s Emergency Plan activities did not progress as expected towards the
planned outputs. Specifically, 5 activities achieved or exceeded planned outputs, 13 did
not achieve planned outputs and 3 could not be evaluated because targets were not
established or because sufficient information on actual accomplishments for FY 2005
was not available. (Appendix III lists the 21 activities, their reported accomplishments,
and the accomplishments verified by our audit.)

The program achieved or exceeded five planned outputs, mostly in the areas of
prevention of mother-to-child transmission and voluntary counseling and testing. These
areas were a focus of attention during the first two years of the program, as was scaling
up activities by bringing nine sub-grantees into the program in 2004 and bringing ten
new sub-grantees into the program in 2005.

•   Prevention of mother-to-child transmission (PMTCT) – Activities included training for
    health professionals, some light renovation of facilities, and support for operating
    costs. A considerable amount of effort was expended to expand the quantity and
    quality of PMTCT services and to make these services more widely available.
    During FY 2005, the program increased the number of assisted PMTCT sites from 8
    to 43, surpassing the planned output target of 42. While these sites did not provide
    services to the planned number of women (see page 6), establishment of the sites
    themselves facilitated access to program services and help lay a basis for providing
    a higher level of services in the future.

•   Number of voluntary counseling and testing outlets – Program activities included
    training for counselors and testers and support for operating costs. During FY 2005,
    the number of fixed-location counseling and testing sites increased from 0 to 15 and
    a mobile unit serviced an additional 26 sites. Thus, the program exceeded the
    planned output of providing voluntary counseling and testing services at 18 sites.

•   Number of individuals who received counseling and testing for HIV – The program
    counseled and tested 10,546 individuals for HIV, which exceeded its target of 6,000.

•   Number of individuals trained in providing voluntary counseling and testing services
    – Family Health International (FHI) substantially met its planned output of training


2 The FY 2005 Country Operational Plan listed 27 planned outputs, including six outputs related
  to mass media programs. In February 2006, the State Department’s AIDS Coordinator
  announced indicators related to mass media programs should no longer be reported, as such
  estimates are not sufficiently reliable to be useful. Therefore, we excluded these six outputs
  from our report.


                                                                                              5
    100 individuals on providing voluntary counseling and testing services by training 95
    individuals.

•   Number of individuals trained on providing palliative care – FHI and its
    sub-contractors trained 146 people to provide palliative care to HIV-infected
    individuals exceeding the expected output of 100 individuals.

However, as discussed below, 13 planned outputs were not met.

Many Planned Outputs Were Not Achieved

Summary: The FY 2005 country operational plan included 21 expected outputs related
to prevention and care activities. However, 13 of these planned outputs were not
achieved because FY 2005 funds were not received by the Mission until March 2005,
because supporting media campaigns were not launched or communications materials
were underutilized, because the local sub-grantees were less capable than expected,
because USAID and FHI did not always provide needed guidance and oversight,
because of insufficient funding, or because of other reasons. Consequently, the
program did not deliver the expected level of prevention and care services to program
beneficiaries.

The following sections describe factors that limited the effectiveness of seven of the
most important prevention and care activities:

•   Pregnant Women Receiving PMTCT Support – The FY 2005 planned output was to
    provide counseling and testing to 10,200 pregnant women. The program reported
    reaching 7,960 pregnant women but, because of inaccurate and unsupported
    reporting on actual achievements, the actual number of women reached is uncertain.
    The program did not meet its PMTCT target for several reasons. First, according to
    USAID officials, the target for pregnant women to be reached was based on the
    assumption that there would be 19,000 births during FY 2005, but later the estimate
    of births during FY 2005 was reduced to only 15,000. Second, the program did not
    receive FY 2005 funds until March 25, 2005, leaving only a half year to implement a
    full year of activities. Third, only one media campaign promoting PMTCT services
    was launched before December 2005 and no new communication materials on
    PMTCT services were produced. Finally, Georgetown Hospital (where a very
    significant portion of Guyanese women have their babies) did a poor job of referring
    its clients for PMTCT services: only 550 women were tested out of 3,810 women
    who gave birth at Georgetown Hospital from January through September 2005.

•   Orphans and Vulnerable Children Served – The program did not meet its planned
    output of providing 560 orphans and vulnerable children with care and support. The
    program reported that 5,209 orphans and vulnerable children were served but our
    review of supporting documentation indicates that only 289 children, few of whom
    were directly affected by HIV/AIDS, were served. The sub-grantees were unaware
    that the program should be limited to children directly affected by HIV/AIDS and were
    given inaccurate guidance on the definition of orphans and vulnerable children.
    Finally, additional oversight and on-site mentoring by USAID and FHI would have
    helped sub-grantees achieve their targets.




                                                                                       6
•   Palliative Care – According to mission officials, the expected output of 2,500
    HIV/AIDS-infected persons provided with palliative care was not met because the
    capacity of sub-grantees to deliver palliative care was greatly overestimated.
    Therefore, implementation had to be limited to only a few sub-grantees. In addition,
    training on palliative care was not conducted until mid-2005. Prior to this, the
    sub-grantees did not have specific guidance on how to implement a palliative care
    program. Our visits to several sub-grantees in early 2006 indicated that they still did
    not know how to set up and deliver a home-based visitation program. For example,
    sub-grantees were unaware that the program should be limited to individuals infected
    with HIV/AIDS. Consequently, palliative care services were extended to not only
    persons directly infected by HIV/AIDS but also to individuals who were terminally ill
    with other illnesses. We encountered reporting problems as well: the reported
    number of people receiving palliative care, 742, was not supported by documentation
    and the reported number included persons not infected by HIV/AIDS.

•   Mass Media HIV/AIDS Prevention Programs that Promote Abstinence and/or Being
    Faithful – During FY 2005, although the program planned to deliver 20 mass media
    programs, only three mass media programs promoting abstinence and be faithful
    were implemented. In addition, while Howard Delafield International developed a
    brochure and communication materials, distributing these materials received a low
    priority while FHI was preoccupied with opening new HIV counseling and testing
    sites.

•   Individuals Reached with Community Outreach Program Promoting Abstinence –
    The planned output for FY 2005 was that this activity would reach 10,000 individuals
    but FHI only reported reaching 410 individuals. While FHI reported implementing 13
    of 18 planned community outreach programs, the programs reached fewer people
    than planned. In addition, inadequate liquidity for financing activities by sub-grantees
    (as addressed in the section beginning on page 16 below) also contributed to poor
    results.

•   Individuals Trained to Provide Prevention Programs – FHI had an expected output of
    training 400 individuals to promote abstinence and be faithful and other prevention
    measures. However, only 231 individuals were trained. Rapid expansion of HIV
    counseling and treatment sites drew FHI’s attention from these planned prevention
    activities.

•   Individuals Trained or Retrained on Delivering PMTCT Services – Only 75 persons
    out of an expected output of 100 were trained or retrained on how to provide PMTCT
    services. A shortage of health professionals in Guyana and the consequent
    difficulties that the MOH faced in finding people to staff their health facilities
    contributed to the shortfall.

The other activities that fell short of their planned outputs are listed in Appendix III.

One of the main reasons that some planned outputs were not achieved was that
USAID/Guyana did not receive FY 2005 funding until March 25, 2005, about half way
through the fiscal year. Because this problem was outside the control of the Mission,
this issue will have to be addressed in the Office of Inspector General’s Performance
Audits Division overall report.


                                                                                            7
As a result of the problems described, the program was not as effective as planned in
providing prevention and care-related services to at-risk populations and to people living
with HIV/AIDS. In addition, as noted above in the discussion of support for orphans and
vulnerable children and other palliate care activities, Emergency Plan funds were used
to provide benefits to ineligible beneficiaries who were not directly affected by HIV/AIDS.

   Recommendation No.1: We recommend that USAID/Guyana obtain from Family
   Health International an action plan that includes a timeline and steps needed to
   fully implement abstinence/be faithful activities, prevention of mother-to-child
   transmission mass media campaigns, palliative care, and orphan and vulnerable
   children programs.

   Recommendation No. 2: We recommend that USAID/Guyana, in coordination
   with Family Health International, develop, disseminate, and support with on-site
   mentoring, detailed guidance on implementing the palliative care and orphan and
   vulnerable children program components for the benefit of participating sub-
   grantees.

Evaluation of Management Comments – In response to our draft report, the Mission
stated that the Office of the U.S. Global AIDS Coordinator recently recognized the
weaknesses in the indicators for mass media and thus all have been eliminated.
Therefore, we excluded these six outputs from our report.

USAID/Guyana also believed that because it did not receive the FY 2005 funding until
March 25, 2005, the date by which the program had to achieve the COP 2005 targets
should be March 31, 2006, not September 30, 2005. USAID/Guyana mentioned that if
the March 31, 2006 date was used, it would have achieved 13 of the 21 planned outputs.

While we acknowledge the Mission’s viewpoint, the FY 2005 COP states that the targets
included in the plan are the planned targets by the end of FY 2005. In addition, the FY
2005 Annual Program Results guidance states that results between October 1, 2004 and
September 30, 2005 are to be reported against the FY 2005 targets and that results are
to be reported regardless of whether they were achieved with FY 2004 or FY 2005
funding. We have mentioned in the finding that the long delay in receipt of funding was
one of the main reasons for not achieving some of the targets. Because this funding
delay is a systemic problem, and not unique to USAID/Guyana, this issue will need to be
addressed in Washington. Even if we assumed that the Mission had until March 31,
2006 to meet the FY 2005 targets, our main conclusions concerning the progress of
prevention and care activities would remain the same.

USAID/Guyana stated that it agrees with Recommendation No.1 and it has requested
and received a draft work plan that outlines a timeline and implementation plan that
includes the activities listed in the recommendation and will ensure that a finalized work
plan sufficiently addresses these focus areas.

In response to Recommendation No. 2, the Mission stated that FHI, in collaboration with
USAID and Maurice Solomon & Co., has already developed core teams that will support
each sub-grantee with a focus given to monitoring and evaluating their programs and
clarifying any misunderstandings as it relates to orphan and vulnerable children and
palliative care. The Mission indicated that these core teams have completed the first



                                                                                         8
round of quarterly site visits to increase the level of mentoring, support, and technical
guidance provided to the sub-grantees.

A management decision has been reached for Recommendation Nos. 1 and 2 and a
determination of final action on these recommendations will be made by the Audit
Performance and Compliance Division (M/CFO/APC).

Performance Targets Were Inconsistent

Summary: According to guidance in USAID’s Automated Directives System (ADS),
performance indicators and targets must be established so that program performance
can be measured. However, the performance targets established for Emergency Plan
activities in Guyana were inconsistent with one another. At the outset of the program,
USAID/Guyana focused on rapidly scaling up Emergency Plan activities and did not
devote sufficient effort to ensuring that program performance targets were expressed
consistently. The large number of indicators established under the program also
contributed to the problem. Inconsistencies in the performance targets reduced their
usefulness and made it difficult to assess progress under the program.

ADS 203.3.3.4.5 states that each indicator “should include performance baselines and
set performance targets that can optimistically but realistically be achieved within the
stated timeframe and with the available resources.” ADS Section 203.3.2.1.d notes that
“more information is not necessarily better because it markedly increases the
management burden and cost to collect and analyze. Operating units should also align
their performance information needs with those of their partners, thereby lessening the
reporting burden for partner organizations.” Beyond what is specifically stated in the
ADS, it is obviously important to the success of any program that program performance
indicators and targets be unambiguous and expressed consistently.

However, there were numerous inconsistencies in the performance targets established
for Emergency Plan activities in Guyana. While the country operational plan has 27
targets related to prevention and care activities, the FHI contract listed only 11 targets,
and only 5 of them coincided with the targets in the country operational plan. Of these 5
targets, 4 exhibited inconsistencies as shown in the following table.

Table No. 1: Comparison of Performance Targets

     Performance Indicator              Target in       Target in FHI    Target in Sub-
                                        Country           contract          Grantee
                                       Operational                        Workplans
                                          Plan
Orphans and Vulnerable Children            560               600               624
Served by the Program
Individuals Provided with HIV-            2,500             2,700              480
Related Palliative Care
Pregnant Women Provided with             10,200            15,200           No target
Prevention of Mother-to-Child
Transmission Services, Including
Counseling and Testing



                                                                                          9
     Performance Indicator                Target in        Target in FHI     Target in Sub-
                                          Country            contract           Grantee
                                         Operational                          Workplans
                                            Plan
Individuals Receiving Voluntary             6,0003             7,843            No target
Counseling and Testing

Another problem noted was that the FHI workplan and two of the nine sub-grantee
workplans reviewed (for Youth Challenge Guyana and Artistes in Direct Support) did not
provide targets for either all or the majority of their activities.

At the outset of the program, USAID/Guyana focused on rapidly scaling up Emergency
Plan activities and did not devote sufficient effort to ensuring that program performance
indicators and targets were expressed consistently. The large number of prevention and
care indicators established under the program also contributed to the problem. For
example:

•   32 indicators were required by the Office of the Global AIDS Coordinator for its
    Annual Report to Congress,

•   27 indicators were included in the 2005 country operational plan,

•   27 strategic objective level indicators appeared in USAID/Guyana’s 2005 Annual
    Report,

•   11 indicators were included in USAID/Guyana’s contract with FHI,

•   107 indicators were included in FHI’s work plan,

•   69 indicators were included in sub-grantees’ monthly reports to FHI, and

•   different numbers of indicators appeared in each of the 19 sub-grantees’ work plans

While many of these indicators were similar to one another, there were numerous
differences in the wording and definitions of the indicators.

Inconsistencies in program performance targets made it difficult for management to
assess progress under the program. Further, the number of indicators created
confusion, increased workload, and placed an unnecessary burden on USAID/Guyana,
FHI, and the sub-grantees. It also reduced program efficiency and increased the risk of
inaccurate and unsupported results.

    Recommendation No. 3: We recommend that USAID/Guyana ensure that
    performance indicators and their corresponding targets are developed
    consistently among the various program documents.



3 This target was stated inconsistently (as 1,600 and 6,000) even within the country operational
  plan itself. However, both the Mission and FHI believed that the target was 6,000.


                                                                                             10
   Recommendation No.4:        We recommend that USAID/Guyana periodically
   evaluate performance indicators to ensure that all indicators are necessary,
   relevant and easily understood by all concerned.

Evaluation of Management Comments – In response to Recommendation No. 3,
USAID/Guyana stated that it will include the indicators and their targets during the FY
2006 funding allocation process and that the Mission will then follow up with FHI and
sub-grantees to ensure that there is consistency in the monitoring and evaluation plan,
annual work plans, and monitoring and evaluation tools.

With regard to Recommendation No. 4, the Mission disagreed with part of the
recommendation in our draft report, which was to reduce and simplify the number of
indicators, stating that it is required to fulfill all applicable Emergency Plan indicators and
has a strategic partnership to support the information needs of the host country
government and international declarations made by them (including 36 core MOH
indicators and 17 United Nations indicators).               The Mission did agree to annually
evaluate the number and purpose of collected indicators to ensure that all are necessary
and relevant.

We continue to believe that the program has too many indicators and this has
contributed to confusion and increased workload among the program implementers.
Nevertheless, because considerable judgment is needed to decide how many indicators
a program should have, and because the Mission is in the best position to make this
judgment, we have deferred to the Mission’s judgment and have eliminated this part of
the recommendation.

A management decision has been reached for Recommendation Nos. 3 and 4 and a
determination of final action on these recommendations will be made by the Audit
Performance and Compliance Division (M/CFO/APC).

Results Reported by FHI and Sub-Grantees
Were Inaccurate or Unsupported

Summary: According to ADS 203.3.5.1 and USAID TIPS 12, performance data should
be accurate and reliable and missions should take steps to ensure that submitted data is
adequately supported. In 50 of the 60 results we reviewed (83 percent), information on
actual results reported by sub-grantees was inaccurate or unsupported. In addition,
among three of eight Ministry of Health (MOH) health sites visited, we found a variation
ranging between 21 and 33 percent, between the results reported and the corresponding
information gleaned from supporting documentation. Central to the reasons why
reported results were inaccurate was that USAID/Guyana and FHI did not always
provide effective guidance to the sub-grantees or to the MOH and did not periodically
validate reported results. As a result of inaccurate reporting by sub-grantees and the
MOH, USAID/Guyana could not reliably determine if the program was achieving planned
outputs and the Mission reported inaccurate information to the Office of the U.S. Global
AIDS Coordinator and to the Congress.

In support of program reporting requirements, FHI requires all sub-grantees to submit
monthly progress reports that include information on 69 performance indicators related
to prevention and care activities. The monthly reports submitted by the sub-grantees are


                                                                                            11
provided to FHI. FHI then records the information received from the sub-grantees in a
spreadsheet. FHI also collects data from the MOH facilities supported under the
program and records the information in a spreadsheet as well. Subsequently, FHI
produces quarterly, semi-annual and annual progress reports that are submitted to
USAID/Guyana, which utilizes the information in fulfilling its reporting requirements to the
Office of U.S. Global AIDS Coordinator (OGAC)4 and to Congress.

In order to permit USAID staff to manage for results and produce credible reporting, ADS
203.3.5.1 requires performance data to be precise and reliable. ADS 203.3.5.1 also
requires that missions perform effective data quality assessments and take steps to
ensure that submitted data are of reasonable quality and adequately supported. USAID
TIPS Number 12 emphasizes the importance of documentation, stating that proper
documentation is a process that facilitates the maintenance of quality performance
indicators and data. Such documentation should provide an opportunity for independent
checks concerning the quality of the performance measurement system. USAID’s
contract with FHI states that “it is imperative to have well-developed and timely data from
surveillance and program monitoring, supported by appropriate management information
systems and other information technology.” FHI’s monitoring and evaluation plan states
that the maintenance of data quality will be ensured through the training and supervision
of sub-grantee staff and through tracking progress on achievement of activities. In
addition, FHI’s work plan states that FHI is responsible for conducting field visits that
provide technical support ensuring the quality of data collected.

While visiting nine sub-grantee project sites, we compared information included in the
progress reports to supporting documentation. We found errors and discrepancies in 50
out of 60 cases reviewed as shown below.

Table No. 2: Review of Results Reported by Sub-Grantees

         Sub-Grantee                Results Tested         Results            Percent
                                                        Inaccurate or      Inaccurate or
                                                        Unsupported        Unsupported
Artistes in Direct Supports                7                  7                100%
Comforting Hearts                          7                  4                 57%
Guyana Responsible                         6                  4                 67%
Parenthood Association
Hope Foundation                            11                  9                82%
Lifeline Counseling Services               5                   3                60%
Linden Care Foundation                     4                   3                75%
The Network of Guyanese                     5                  5                100%
Living with HIV/AIDS
Volunteer Youth Corps                       7                  7                100%
Youth Challenge Guyana                      8                  8                100%
Total                                      60                 50                83%




4 The FY 2005 Emergency Plan Annual Program Results Guidance states that USG teams in
  country are responsible for ensuring that the data reported to OGAC are of good quality and
  accurately describe the USG program in country.


                                                                                          12
Several specific examples       of   inaccurate   results   and   inadequate   supporting
documentation follow:

•   The Hope Foundation did not have documentation supporting the number of printed
    materials reportedly distributed, individuals reached with community outreach, or the
    number of community outreach programs conducted. Also, in August 2005, Hope
    Foundation reported that they distributed 590 condoms; however, the supporting
    documentation indicated that 394 condoms were distributed.

•   Artistes in Direct Support reported that 29 peer educators were trained in February
    2005 and 36 peer educators were trained in March 2005. However, the organization
    only had documentation available to show that 11 peer educators were trained.
    Also, Artistes in Direct Support reported that they distributed 17,809 condoms during
    the months of December 2004, February 2005 and September 2005. However, we
    could only find documentation supporting the distribution of about 3,000 condoms.

•   The Network of Guyanese Living with HIV/AIDS reported providing care to 34
    persons living with HIV/AIDS during September 2005. However, we could only find
    documentation showing that 17 persons received palliative care.             Also, the
    organization reported training 46 volunteers in home-based care in May 2005. This
    data could not be verified since the organization did not keep attendance records.

•   Lifeline Counseling Services reported providing palliative care to 30 individuals in
    April 2005 but we only found documentation for 12 individuals receiving care.

•   Volunteer Youth Corps reported serving 100 individuals with community outreach
    activities promoting behavior change and communication and reported training 55
    persons on promoting abstinence and being faithful in February 2005. However, the
    organization could not provide documentation to support any of these
    accomplishments.

•   Youth Challenge Guyana reported reaching 112 youths through peer educators and
    distributing 288 condoms in May 2005. However, the organization could not provide
    documentation to support these accomplishments.

In addition to the problems related to sub-grantees reporting results, FHI also did not
accurately report accomplishments by the MOH and the sub-grantees. We noted the
following problems:

•   There were discrepancies ranging between 21 to 33 percent between the results
    reported by FHI and the documented results of the number of pregnant women
    tested for HIV/AIDS at three of the eight MOH sites we visited. For example, the site
    at Bartica Hospital recorded 266 pregnant women as having been tested for HIV
    while FHI reported 216 – a variance of 23 percent.

•   FHI reported that 5,209 orphans and vulnerable children were reached during FY
    2005 through 6 sub-grantees. However, this figure actually represents the number of
    services provided, not the number of children reached. Because each child can, and
    often does, receive more than one service, the reported figure is grossly overstated.
    We concluded that 289 children were reached, but most of these children did not


                                                                                      13
    meet the definition of an orphan or vulnerable child provided by the Office of the U.S.
    Global AIDS Coordinator because they were not directly affected or infected with
    HIV/AIDS. For example, data from Lifeline indicated that out of 211 children
    reported, only 65 were directly affected by HIV/AIDS.

•   FHI reported that Lifeline Counseling Services tested no individuals for HIV in
    February 2005. However, according to Lifeline’s progress report and the voluntary
    counseling and testing register, 55 individuals were tested.

In addition to the specific problems outlined above, the reporting format provided by FHI
only contained current period data. No cumulative results toward achieving planned
outputs were captured. Including cumulative results would better help sub-grantees
measure progress made towards achieving planned outputs.

The problems described above are symptomatic of the sub-grantees not having the
capacity to measure and report on progress accurately. The sub-grantees were
negatively impacted by a lack of effective guidance and on-site mentoring and by the
fact that USAID/Guyana and FHI did not measure the validity of the reported results
during field visits.

USAID/Guyana did not have a monitoring and evaluation officer so they relied, in part,
on FHI to ensure the quality of reported results. However, FHI did not always provide
effective guidance and on-site mentoring or make periodic visits to verify the accuracy of
the progress reports. Although FHI provided a data collection tool to the sub-grantees, it
was not properly utilized. Several sub-grantees did not understand some of the
indicators listed in the tool – especially the ones related to orphans and vulnerable
children and palliative care. The FHI data collection tool included 23 indicators related to
the orphans and vulnerable children and palliative care program. These 23 indicators
were further sub-divided by age, sex and new and existing cases. During our visits,
most of the grantees reported that they did not know which category they should use to
report results. While FHI provided training and conducted site visits, they did not make
sure that training was properly understood and did not discover that the sub-grantees
were reporting data that did not have supporting documentation. FHI’s efforts with
respect to data collection and reporting were less than adequate in large part because
FHI was giving priority to expanding program operations, establishing 50 new counseling
and testing sites and bringing 10 new sub-grantees into the program during fiscal year
2005.

Because the results reported by FHI, the MOH, and the sub-grantees were inaccurate or
unsupported, USAID/Guyana could not reliably determine if program activities were
meeting their objectives or make well-supported programmatic or funding decisions. In
addition, publications such as the USAID Annual Report and the Emergency Plan’s
Report to Congress contained erroneous information. For example, the Second Annual
Report to Congress states that 5,200 orphans and vulnerable children received support
while in reality less than 300 received support.

To ensure that Mission managers have accurate and reliable data for reporting results to
USAID/Washington, the Office of the U.S. Global AIDS Coordinator, the Congress, and
the public, we are making the following recommendations:




                                                                                         14
   Recommendation No. 5: We recommend that USAID/Guyana ensure that Family
   Health International provides the Ministry of Health and sub-grantees with
   training and guidance that ensures the submission of accurate, well-documented
   performance data on current and cumulative progress toward achieving targets.

   Recommendation No. 6: We recommend that USAID/Guyana ensure that Family
   Health International implements a monitoring plan that regularly validates the
   quality of data, including supporting documentation, submitted by all sub-
   grantees.

Evaluation of Management Comments – In response to the draft report, the Mission
disagreed with some of the information presented in the finding. For example,
USAID/Guyana stated that sub-grantees were provided training and guidance on
reporting and that site visits were made to provide technical assistance for reporting.
USAID/Guyana also took exception to our conclusion that “As a result of inaccurate
reporting by sub-grantees and the MOH, USAID/Guyana could not reliably determine if
the program was achieving planned outputs and the Mission reported inaccurate
information to the Office of the U.S. Global AIDS Coordinator and to the Congress.”

As stated in the finding, we acknowledged that FHI provided training and conducted site
visits. However, FHI did not make sure that training was properly understood and did
not discover that the sub-grantees were reporting data that were either inaccurate or did
not have supporting documentation. Hence, our testing revealed a high error rate (83
percent). Moreover, based on this high error rate, we believe that USAID/Guyana could
not reliably determine if the program was achieving planned outputs and we also found
cases where the Mission reported inaccurate information to the Office of the U.S. Global
AIDS Coordinator, such as over reporting the number of orphan and vulnerable children
assisted.

USAID/Guyana agreed with Recommendation No. 5 and stated that it will increase
mentoring and guidance to the Ministry of Health and to the sub-grantees to ensure the
submission of accurate, well-documented performance data on current and cumulative
progress toward achieving targets. A management decision has been reached for
Recommendation No. 5 and a determination of final action on this recommendation will
be made by the Audit Performance and Compliance Division (M/CFO/APC).

In response to Recommendation No. 6, the Mission stated that it will ensure that FHI will
continue to implement the monitoring plan that regularly validates the quality of data,
including supporting documentation, submitted by all sub-grantees. In addition, FHI has
already initiated quarterly site visits to each sub-grantee to perform this work. The
Mission’s response appears to state that FHI had been regularly validating the quality of
results and that it will continue to do so. This is contrary to what was found during the audit.
We found no evidence that FHI was periodically validating the results reported by sub-
grantees. This lack of validation was confirmed by the high error rate and by discussions
with various sub-grantee officials. A management decision for Recommendation No. 6 can
be reached when USAID/Guyana provides details on how FHI will validate the quality of
results reported, including supporting documentation, by all sub-grantees.




                                                                                             15
Delays in Providing Advances to
Sub-Grantees Impeded Program Activities

 USAID’s contract with Maurice Solomon & Company (Maurice Solomon) states that
 “the contractor shall assure that funds are available as needed by partner
 organizations.” However, sub-grantees typically did not receive advances from
 Maurice Solomon until 21 days into the month that the advances were intended to
 cover, leaving the sub-grantees chronically short of cash. This problem occurred
 primarily because the contract with Maurice Solomon was unclear on how funding to
 sub-grantees was to be provided. Lack of timely funding impeded the sub-grantees’
 efforts to achieve the goals and targets in their work plans and, in some cases, caused
 them to lose credibility with their clients.

Maurice Solomon signed a one-year contract with USAID on May 9, 2005 to provide
$1.3 million to sub-grantees and provide them with financial and administrative
management assistance. At that time, nine sub-grantees were already being financed
by USAID/Guyana through sub-agreements with FHI. When these sub-agreements
ended on September 30, 2005, the sub-grantees entered into new sub-agreements with
Maurice Solomon to cover the next 12 months. In addition to these 9 existing sub-
grantees, USAID/Guyana approved 10 new sub-grantees for financing from July 1, 2005
through June 30, 2006. Thus, as of December 31, 2005, a total of 19 sub-grantees were
receiving funds from Maurice Solomon to implement the Emergency Plan related care
and prevention activities.

USAID’s contract with Maurice Solomon states that “the contractor shall assure that
funds are available as needed by partner organizations and that funds will not be subject
to administrative delays.” However, the sub-grantees did not receive funds in a timely
fashion from Maurice Solomon. Maurice Solomon required sub-grantees to liquidate the
previous month’s advance before approving a new advance for the following month.
Because the sub-grantees needed time to prepare the liquidations, and because
Maurice Solomon needed time to review the liquidations and process new advances, the
sub-grantees did not receive advances until an average of 21 days into the following
month, leaving them chronically short of funds.5 The delays each sub-grantee
experienced in receiving advances are detailed in the following table.

Table No. 3: Dates Funds Were Received by Sub-Grantees for July through December
2005

       Sub-Grantee                Date Funds Were Received for Each Month            Average
                               Jul.     Aug.   Sep.     Oct.    Nov.   Dec.         Days Late
Comforting Hearts              7/14     8/11    9/13    11/2    11/2   12/2             13
Linden Care Foundation         7/18     8/11    9/20    11/2    11/2   12/2             14



5 Delays in approving sub-grantees’ work plans also contributed to delays in providing advances.
  The ten new sub-grantees that entered the Emergency Plan program in July 2005 received no
  advances at all, or only minimal amounts for office expenses and salaries, until FHI approved
  their work plans beginning in October 2005. Finally, weak financial management by some sub-
  grantees contributed to funding problems since the sub-grantees submitted ineligible or
  misclassified costs to Maurice Solomon in their liquidations, leading to delays and
  disallowances.


                                                                                             16
       Sub-Grantee               Date Funds Were Received for Each Month        Average
                              Jul.     Aug.   Sep.     Oct.    Nov.   Dec.     Days Late
Ribbons of Life               NA        NA     NA     10/14    12/1   12/1         15
Youth Challenge Guyana        7/25     8/11    9/12   10/21    11/2  12/20         15
Hope Foundation               7/14     8/11    9/20    11/2    11/2   12/8         15
Guyana Responsible            7/22     8/12    NA      11/2    11/2   12/9         16
Parenthood Association
Artistes in Direct Support     7/22   8/23     9/14    11/2    11/2     12/9       17
The Network of Guyanese        7/27   8/10     9/12    11/2    11/2    12/20       17
Living with HIV/AIDS
RESLOCARE                       8/5   8/26     9/13    10/14   11/10    12/8       18
Love & Faith Outreach           8/9   8/26     9/13    10/21   11/10    12/8       20
Lifeline Counseling Services 8/15     8/25     9/5      11/2    11/2    12/8       20
Hope for All                    8/5   8/26     9/13    10/20   11/21    12/8       21
St. Francis Community           8/9   8/26     9/13    10/14    12/5    12/5       22
Developers
Roadside Baptist Church        8/11   8/26     9/13    10/20   12/8     12/8       25
Mibicuri Youth Development      8/9   8/26     9/13    10/27   12/8     12/8       25
Group
Swing Star/FACT                 8/5   8/26     9/13    10/21   12/21   12/21       28
Volunteer Youth Corps          8/15   8/15     9/15    12/1     12/1    12/1       28
Central Islamic Organization    NA     NA      NA       NA     11/10    1/24       33
of Guyana
Help & Shelter                  8/8   8/26     9/13    12/21   12/21   12/21       39
Overall average for 19 sub-grantees                                                21

These delays occurred primarily because USAID/Guyana’s contract with Maurice
Solomon was unclear on how Maurice Solomon was to provide funding to sub-grantees.
The contract indicated that Maurice Solomon was eligible to receive advances from
USAID but did not clearly authorize Maurice Solomon to make advances to the sub-
grantees. This ambiguity in the contract led Maurice Solomon to take a very
conservative approach toward managing funding for the sub-grantees. USAID/Guyana
staff were aware of the problem, although perhaps not its extent, and requested help in
resolving the problem from USAID/Dominican Republic, the regional mission that
services USAID/Guyana. Eventually, USAID/Dominican Republic clarified, through an e-
mail to Maurice Solomon in January 2006, that the intent of the contract was that
Maurice Solomon would provide 60-day rolling advances to the sub-grantees. Under
this arrangement, sub-grantees will receive an initial advance for 30 days’ cash needs,
then receive a second advance for the next 30-day period, and then submit a liquidation
of the first advance before receiving an advance for the third 30-day period.

Lack of timely funding impeded the sub-grantees’ efforts to achieve the goals and
targets in their work plans. As activities were canceled or postponed due to a lack of
funding, staff became discouraged and, in some cases, the sub-grantees began to lose
credibility with their clients. Some specific examples of the problems caused by a lack of
funding follow:




                                                                                        17
•   Voluntary Youth Corps was unable to make any payments between November 4,
    2005 and December 1, 2005 since no funds were received for October or November
    2005. As a result, its palliative care program suffered and clients left the program.

•   Linden Care Foundation was unable to pay all of its staff on time and did not provide
    travel advances to staff in November. In addition, a workshop was postponed from
    January to February 2006.

•   Comforting Hearts had a bank balance of less than $2, as of February 7, 2006,
    because it did not receive program funds in January 2006. To get by, it relied on
    additional assistance from staff and volunteers, holding a workshop, for example, in
    a staff member’s home. It also made some purchases on credit. Still, it was unable
    to produce a scheduled TV program in January 2006.

•   In January 2006, Lifeline Counseling Services had to postpone an educational tour
    for orphans and vulnerable children, hygiene kits for orphans and vulnerable children
    could not be purchased, home-based care training was canceled, and home-based
    care volunteers were not given their stipend.

•   Artistes in Direct Support scheduled training for pastors in November 2005, but the
    training had to be postponed until January 2006. Outreach activities aimed at high
    risk groups and a drama workshop for religious youth leaders were also delayed.

As indicated above, USAID/Dominican Republic has informally clarified the intention that
Maurice Solomon should provide 60-day rolling advances to sub-grantees. Still, there is
no language in the contract authorizing advances to sub-grantees, and the contract
needs to be amended to more clearly reflect its intent.

       Recommendation No. 7: We recommend that USAID/Guyana arrange to
       modify the current contract and any subsequent contracts with Maurice
       Solomon & Company to better ensure that sub-grantees receive adequate
       funds in a timely manner.

Evaluation of Management Comments – In response to the draft report,
USAID/Guyana mentioned that weak financial management by some sub-grantees
contributed to the funding delays. Also, the Mission disagreed with the statement that
sub-grantees began to lose credibility with its clients. As stated in the finding, we
mention that weak financial management by some sub-grantees contributed to the
funding problem and a finding on this problem is included below. Moreover, based on
interviews with sub-grantee officials, several indicated that as activities were canceled or
postponed due to a lack of funding, staff became discouraged and, in some cases, the
sub-grantees began to lose credibility with their clients.

USAID/Guyana agreed with Recommendation No. 7 and stated that it has already
issued a travel authorization and request for assistance from its Regional Contracting
and Controller Office in Santo Domingo, Dominican Republic. This site visit was
planned for the second quarter of FY 2006. A management decision has been reached
for Recommendation No. 7 and a determination of final action on these
recommendations will be made by the Audit Performance and Compliance Division
(M/CFO/APC).


                                                                                         18
Several Sub-Grantees Suffered from
Weak Financial Management Practices

Summary: According to the sub-grants with Maurice Solomon, each sub-grantee shall
maintain adequate internal accounting and administrative systems to properly account
for the grant. Several sub-grantees did not have adequate financial management
practices and were not able to complete monthly liquidations in a timely manner. This
occurred primarily because the accountants were not qualified or properly trained to
perform their duties. As a result, some sub-grantees received funds late, which
impacted their scheduled activities. Poor financial management practices can also
potentially lead to fraud, waste, and abuse.

According to the sub-grants with Maurice Solomon, each sub-grantee “shall maintain
adequate internal accounting and administrative systems to properly account for the
grant. The accounting system maintained shall provide necessary documentation to
allow for the verification of transactions and facilitate timely preparation of
acquittals/liquidations and reports.” While the sub-grantees were required by their
sub-grants to submit liquidations by the tenth day of the following month, several
sub-grantees submitted liquidations late and included unsupported or misclassified costs
in their liquidations.

Specific examples of financial management weaknesses follow:

•    At Volunteer Youth Corps, Maurice Solomon noted that record keeping was poor, no
     general ledger was in place, supporting schedules for monthly liquidations were
     incorrect, and expenses were being allocated to the wrong budget line items.

•    The Central Islamic Organization of Guyana wrote checks in November that had not
     been properly authorized by a second individual.

•    Artistes in Direct Support made advance payments for items that were not in the
     approved budget, such as payments to television stations and improvements to its
     own offices. It should have obtained prior approval from Maurice Solomon or USAID
     prior to making these payments.

•    St. Francis Community Developers failed to establish a separate bank account for
     managing the Emergency Plan funds and commingled the funds with other sources
     of funding.

Problems such as those described above have resulted in Central Islamic Organization
of Guyana and three other sub-grantees being placed on a three-month probation
period.6 Sub-grantees on probation were subject to extra scrutiny by Maurice Solomon’s
financial analysts when they reviewed monthly liquidations. Weak financial management
practices followed by sub-grantees can result in disallowances or delays in receiving



6
    The Central Islamic Organization of Guyana, Roadside Baptist Church, Reslocare, and
    Swingstar were placed on probation in October 2005. In January 2006, the Central Islamic
    Organization of Guyana and Roadside Baptist Church had their probationary periods extended
    for another three months.


                                                                                           19
funds that are needed for care and prevention activities. Weak financial management
practices may also create vulnerabilities to fraud, waste, and abuse.

Sub-grantees were experiencing financial management weaknesses because their
accountants were only marginally qualified to perform their duties or had not been
properly trained. Maurice Solomon noted that only about two of the 19 sub-grantees had
an accountant with three or more years of relevant experience. Because of this
limitation, sub-grantees expressed a need for formal financial management training, in
addition to the informal one-on-one training that occurs during the monthly liquidation
process. In fact, Maurice Solomon’s contract with USAID requires it to provide financial
and administrative management assistance to sub-grantees, including annual training on
financial management practices. This training was scheduled in July 2005 and again in
January 2006; however, both sessions were postponed.

   Recommendation No. 8: We recommend that USAID/Guyana obtain evidence
   that Maurice Solomon & Company has provided financial management training to
   sub-grantees so that the monthly liquidations can be completed accurately and
   on schedule.

Evaluation of Management Comments – USAID/Guyana agreed with Recommendation
No. 8 and has provided documentation that Maurice Solomon trained 16 sub-grantee
financial representatives on March 30, 2006. Based on the Mission’s comments and the
supporting documentation provided, final action has been taken on Recommendation No.
8.

Program Implementers Did Not
Have Exit Strategies

Summary: The President’s Emergency Plan aims to develop sustainable HIV/AIDS
health care networks, but the main program implementers, FHI and Maurice Solomon
had not developed exit strategies to develop the local sub-grantees carrying out the
prevention and care activities. Furthermore, none of the 11 sub-grantees we visited had
developed detailed plans to sustain prevention and care activities once USAID funds are
no longer available. Sustainability and exit strategies have not yet been adequately
addressed because a higher priority has been placed on expanding and scaling up
activities during the first two years of Emergency Plan activities in Guyana. During the
remainder of the program, progressively more attention needs to be devoted to
sustainability to better ensure that these activities will continue after the cessation of
U.S. Government funding.

The importance of sustainability is recognized in the Office of Global AIDS Coordinator’s
five-year strategy for the Emergency Plan. One of its strategic principles aims to
develop sustainable HIV/AIDS health care networks. Sustainable development activities
mean activities that continue providing benefits beyond the time donor funding ends. In
addition, as outlined in guidance issued by the Office of the U.S. Global AIDS
Coordinator,7 grant language for international NGO partners will require them to take
steps to build local capacity, and the Emergency Plan will begin to require such partners



7 The Emergency Plan’s second annual report to Congress, page 96.


                                                                                       20
to develop exit strategies—plans for reducing their own role and devolving responsibility
to local people and organizations on a reasonable time frame.

Nevertheless, the main program implementers, FHI and Maurice Solomon had not
developed exit strategies to develop the local sub-grantees carrying out the prevention
and care activities. Moreover, none of the 11 sub-grantees we visited had developed a
detailed strategy for sustainability, although three organizations did have some plans to
continue operations after USAID funding ends:

•   In addition to relying on World Bank funds, Artistes in Direct Support plans to raise
    funds by charging the public for its theatrical productions and by charging for training
    it provides in workplaces. Recently, the organization has also taken steps to relocate
    and improve its office.

•   Lifeline Counseling Services currently receives assistance from the World Bank and
    some corporate sponsors. It is continuing to develop relationships with additional
    partners.

•   Linden Care Foundation plans to expand its on-site social pharmacy8 by adding new
    products. It is also working closely with a government body in hopes of receiving
    additional assistance for its activities.

Program participants have not yet focused on sustainability and exit strategies because
they have been consumed by other, more urgent concerns: namely, expanding and
scaling up Emergency Plan activities in Guyana.

Now that the program is in its third year, and considerable progress in terms of
expanding services has been achieved, progressively more emphasis should be placed
on improving the quality of services and sustaining prevention and care activities after
U.S. Government funding for the activities is completed.

    Recommendation No. 9: We recommend that USAID/Guyana work with Family
    Health International and Maurice Solomon & Company to develop a clear exit
    strategy for the Emergency Program in Guyana.

Evaluation of Management Comments – USAID/Guyana disagreed with the
recommendation included in the draft report, pointing out that the recommendation was
directed at the wrong level, i.e., sub-grantees, and suggested a recommendation that
USAID work with FHI and Maurice Solomon to develop a clear exit strategy. We have
accepted USAID/Guyana’s suggestion and changed Recommendation No. 9. A
management decision will be reached for Recommendation No. 9 when USAID/Guyana
has developed a firm plan of action and a date for implementing the recommendation.




8 A social pharmacy provides medicines, contraceptives, and services at levels that are
  affordable to low-income individuals.


                                                                                         21
Did USAID/Guyana’s Emergency Plan treatment activities
progress as expected towards the planned outputs in its grants,
cooperative agreements and contracts?
USAID/Guyana’s Emergency Plan treatment activities did not progress as expected
towards planned outputs. Although USAID/Guyana plays no role in clinical treatment, it
finances some antiretroviral (ARV) drugs and strengthening of a drug management
system. The following section discusses this issue.

Procurement of Antiretroviral
Drugs Was Delayed

Summary: Family Health International (FHI) was responsible for procuring pediatric ARV
drugs and adult second-line ARV drugs in 2004 and 2005. However, the pediatric ARV
drugs did not arrive until May 2005 and there were delays in receiving additional
shipments. The adult second-line ARV drugs did not arrive until February 2006. The
delays in ordering and receiving drugs were due to a lengthy, complex procurement
process and the lack of a supply chain management system. These delays could have
serious effects since interruptions in the supply of ARV drugs can be life threatening.

According to the FY 2004 and 2005 Country Operational Plans, FHI was responsible for
supply chain management and the procurement of pediatric and second-line ARV
drugs.9   FHI’s FY 2005 work plan also states that it, along with the Management
Sciences for Health (MSH), is responsible for strengthening the drug management
system. During fiscal year 2005, it spent $650,000 on these drugs.

The Emergency Plan has the objective of providing an uninterrupted supply of high
quality, low cost products that flow through an accountable system. According to a MSH
official, the goal is to have a 3-4 month supply of ARV drugs on hand.

The first batch of pediatric ARV drugs was ordered on May 2, 2005 and was received on
May 30, 2005. This was an emergency procurement to treat 15 children for one month
and another 15 children for two months. Additional orders intended to treat 60 children
were placed on June 30 and September 9, 2005. The September order was received
between November 27, 2005 and January 21, 2006. The second line ARV drugs,
intended to treat 78 people, were not ordered until January 13, 2006 and were not fully
received until February 20, 2006. The May and June orders were from a U.S. source
and origin and arrived within a month. Because U.S. source and origin drugs were
deemed to be too costly,10 the September and January orders originated from the
Netherlands and took somewhat longer to arrive.



9 First-line ARVs are financed by MOH through the World Bank and the Global Fund and have
  been available free of cost to HIV-infected persons since 2002. As mentioned in footnote 1 in
  the Background section of this audit report, second-line drugs are only provided to patients who
  do not respond to first-line ARV treatment.

10 “Source” refers to the country from which the goods are shipped. “Origin” refers to where the
   goods are made.



                                                                                               22
The delays in ordering and receiving the ARV drugs were due in part to the absence of a
supply chain management system that would forecast demand for ARV drugs and
trigger procurement actions in time to meet the demand. MSH was working to develop
and implement such a system, but the system had not been completed by the end of our
audit.

Delays were also caused by a lengthy and complex procurement process. Several
meetings between numerous parties were required to clarify FHI’s responsibilities.
Before starting the process, FHI had to wait for the Ministry of Health’s approval of
national treatment guidelines for the drug regimens that could be used in Guyana.
Approval of the guidelines for the second-line ARV drugs was not given until October
2005. The program then prepared a drug utilization forecast with several scenarios.
Accurate forecasting was difficult due to the lack of information on current drug
utilization. After a decision was made on what drugs to order, USAID had to prepare
and obtain a required source and origin waiver. Additional time was needed to negotiate
fees and prices with drug agents. Many of these agents viewed Guyana as a low priority
relative to other countries that order substantially more ARV drugs and many agents
were not interested in such a small order. Finally, the process of registering the ARV
drugs for use in Guyana took a long time, partly because there were no written
guidelines that clearly explained the procedure for registering drugs.

Interruptions in the supply of ARV drugs may literally be life threatening. To cope with
the shortages caused by the procurement delays described above, the program
borrowed pediatric ARV drugs from Mercy Hospital from October 25, 2005 to November
23, 2005. It borrowed second line ARV drugs from November 17, 2005 to March 13,
2006.

USAID/Washington has entered into a supply chain management services contract with
numerous partners to provide ARV drugs and supply management support. To avoid
the lengthy procurement process in the future, USAID/Guyana has bought into this
mechanism and the partnership has assigned a procurement agent to backstop
USAID/Guyana and has provided administrative oversight from MSH. According to
USAID officials, this should enable USAID/Guyana to procure the needed drugs within a
three-month timeframe and develop a supply chain system. Specifically, for FY 2006,
USAID has set aside $2,775,000 for the supply chain management contract managed by
USAID/Washington for the benefit of Guyana. Of this amount, $482,000 is specifically
reserved for the purchase of pediatric drugs and related technical support. Because
USAID has already taken action to prevent delays in procuring drugs in the future, no
recommendation is needed.




                                                                                     23
                                                                           APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this audit in accordance with
generally accepted government auditing standards. This audit is part of a worldwide
audit of the President’s Emergency Plan for AIDS Relief (Emergency Plan). The audit
was designed to determine whether prevention, care, and treatment activities
progressed as expected toward achieving planned outputs.

In planning and performing the audit, we reviewed and assessed the effectiveness of
USAID/Guyana’s management controls related to the Emergency Plan.                     The
management controls assessed included the country operational plan, the Mission’s
performance monitoring plan, the Mission’s semiannual portfolio reviews, and monitoring
activities including staying abreast of program activities through meetings and telephone
calls, site visits, and review of progress reports and other correspondence from the
entities that are implementing the program.

During the audit, we interviewed USAID/Guyana officials, members of the U.S.
Government country team in Guyana, and officials of the organizations implementing the
program. We visited the two USAID/Guyana contractors, FHI and Maurice Solomon,
and three of the four FHI sub-contractors. We also visited 11 of the 19 sub-grantees and
16 of 50 MOH facilities assisted by the Emergency Plan. Sub-grantees visited included
all 9 sub-grantees that began implementing the program in FY 2004 as well as 2 of the
10 sub-grantees that joined the program in July 2005. To select the latter 2 sub-
grantees, we judgmentally selected sub-grantees that had accessible, ongoing activities.
With regard to the MOH prevention of mother to child transmission facilities, we visited 8
out of 43 facilities in six of the ten administrative regions of Guyana. Concerning the
counseling and testing sites, we visited 12 out of 15 permanent counseling and testing
sites (including 8 MOH and 4 sub-grantee facilities) in 5 administrative regions of
Guyana, including one outreach facility served by the FHI counseling and testing mobile
unit out of a total of 26 outreach sites. During fiscal year 2005, USAID/Guyana had
obligated $8.8 million and spent $6.3 million in support of the Emergency Plan.

The audit fieldwork was performed in Guyana from January 31, 2006 through February
17, 2006, and the audit focused on activities implemented during FY 2005.

Methodology
To answer the audit objectives, we interviewed Mission officials and in-country partners
and reviewed partner work plans and progress reports to confirm progress reported
towards achieving planned outputs. We also conducted site visits at 11 sub-grantee
offices, observed program operations, and tested data included in progress reports. We
also tested data for eight MOH prevention of mother to child transmission facilities and
eight MOH voluntary counseling and testing facilities. We judgmentally selected these
facilities in an effort to maximize our coverage of the number of individuals tested and
the geographic scope. Testing this data consisted of comparing the reported information
to supporting documentation such as log books, patient records, and other


                                                                                       24
                                                                            APPENDIX I

documentation for selected months for selected activities. We selected months for
review judgmentally, trying to pick months that had reported data to review. In selecting
results for review, we judgmentally selected important results that were most closely
related to the Emergency Plan goals.

In answering the audit objectives, we used the following materiality thresholds:

•   If at least 90 percent of the selected outputs were achieved, we would answer the
    audit objectives positively.

•   If at least 80 percent, but not more than 90 percent of the selected outputs were
    achieved, we would answer the audit objectives positively, but with a qualification.

•   If less than 80 percent of the selected outputs were achieved, we would answer the
    audit objectives negatively.

In judging the significance of variances found during the audit between reported
accomplishments and supporting documentation, we considered variances of 10 percent
or more to be significant and reportable.




                                                                                      25
                                                                           APPENDIX II



MANAGEMENT COMMENTS
April 28, 2006

MEMORANDUM

TO:              Regional Inspector General/San Salvador, Timothy E. Cox

FROM:            USAID/Guyana Director, Fenton Sands

SUBJECT:         Audit of USAID/Guyana’s Progress in Implementing the President’s
                 Emergency Plan for AIDS Relief (Report No. 1-504-06-0XX-P)

This memorandum transmits our comments on the subject audit for your use in revision
of the draft report and inclusion in the final submission. The Mission has responded to
the nine recommendations as requested. Please find both the signed and unsigned copy
as well as the necessary attachments.

The Mission more specifically, requests revision of the following critical components of
the report:

   1.) Revise the indicator evaluation table to take into consideration the March 30,
       2006 deadline, and revise summary evaluation accordingly;
   2.) Delete the six media-indicators that have been deleted by OGAC reporting given
       the weaknesses in the indicators and in collecting applicable data;
   3.) Delete the reference made that MSH implemented treatment; and
   4.) Revise the NGO funding allocation section given the responses.

Our office appreciates the efforts made by your team and feel confident that we will be
able to build a stronger program given this critical analysis.




                                                                                     26
                                                                            APPENDIX II

GUYANA MISSION COMMENTS

Did the prevention and care activities supported by USAID/Guyana through
grants, cooperative agreements, and contracts progress as expected towards
planned outputs?

Many Planned Outputs Were Not Achieved

The audit found that “Of the 27 USAID-financed activities listed in the FY 2005 country
operational plan, 4 activities achieved or exceeded planned outputs, 17 did not achieve
planned outputs and 6 could not be evaluated because targets were not established or
because sufficient information on actual accomplishments for FY 2005 was not
available.”

The Office of the Global AIDS Coordinator recognized the weakness of 23 indicators
which have been removed from reporting responsibility; 6 were directly applicable to this
performance evaluation. The date by which the program had to achieve its results was
March 30, 2006 (not September 30, 2005).11 Taking this into consideration; of the 21
USAID-financed activities listed in the FY 2005 country operational plan 13 activities
were fully achieved or exceeded planned outputs and 8 did not fully achieve planned
outputs. But, of these 8 targets that were not met, five achieved between 70-98% and
only three were achieved at levels less than 50%.12 USAID recognizes that the targets
set for the 2 indicators with the weakest performance within palliative care was a
combination of setting targets too high, an over-estimation of the capacity of civil society
to implement this program, and the fact that Palliative Care guidance was not finalized
by OGAC until February 3, 2006.13

   Recommendation No.1: We recommend that USAID/Guyana obtain from Family
   Health International an action plan that includes a timeline and steps needed to
   fully implement abstinence/be faithful activities, prevention of mother-to-child
   transmission mass media campaigns, palliative care, and orphan and vulnerable
   children programs.

The Mission agrees. USAID has requested and received a draft work plan that
outlines a timeline and stepwise implementation plan that includes but is not limited
to address A/B activity implementation, PMTCT communication programs, palliative
care and OVC. USAID will ensure that the finalized work plan sufficiently addresses
these focus areas.

   Recommendation No. 2: We recommend that USAID/Guyana, in coordination
   with Family Health International, develop, disseminate, and support with on-site
   mentoring, detailed guidance on implementing the palliative care and orphan and



11 Please refer to attached SI Guidance
12 Please refer to attached indicator table
13 HIV/AIDS Palliative Care Guidance #1: An Overview of Comprehensive HIV/AIDS Care
   Services in the President’s Emergency Plan for AIDS Relief: February 3, 2006: US
   Department Of State Office of the Global AIDS Coordinator


                                                                                         27
                                                                            APPENDIX II

   vulnerable children program components for the benefit of participating sub-
   grantees.

The Mission agrees with the recommendation and will sufficiently address the capacity
building needs of the implementing partners with specific focus given to monitoring and
evaluating their programs and clarifying any misunderstandings as it relates to OVC and
palliative care. FHI, in collaboration with USAID and Maurice Solomon & Co., has
already developed core teams that will support each civil society organization and has
completed the first round of site visits. Each core team has a programmatic technical
officer, M&E officer, financial officer from MSC (and USAID representation on at least
half of all visits). These core teams are permanently assigned to each organization and
make quarterly site visits to increase the level of mentoring, support, and technical
guidance that each organization receives on a continual basis and will visit NGOs
throughout the quarter to address issues raised during the quarterly visits.14

Performance Targets Were Inconsistent

The audit team found that, “At the outset of the program, USAID/Guyana focused on
rapidly scaling up Emergency Plan activities and did not devote sufficient effort to
ensuring that program performance indicators and targets were expressed consistently.”
And that, “While many of these indicators were similar to one another, there were
numerous differences in the wording and definitions of the indicators.” The Mission does
agree that its focus in FY05 was on rapidly scaling up service delivery which is at the
heart of the PEPFAR initiative. The Mission also agrees that had it been able to fill its
strategic information staff position, the program would have been stronger.
Nonetheless, the Mission did ensure that it clearly and sufficiently expressed
performance indicators and targets to FHI.15

The audit team found that, “Inconsistencies in program performance targets made it
difficult for management to assess progress under the program. Further, the number of
indicators created confusion, increased workload, and placed an unnecessary burden on
USAID/Guyana, FHI, and the sub-grantees. It also reduced program efficiency and
increased the risk of inaccurate and unsupported results.” The Mission realizes that
systems need strengthening in order to streamline the process, but disagrees that the
monitoring and evaluation responsibilities have placed unnecessary burden on the
program and undermined its efficiency. Further to this, the Mission wants to highlight the
significance of many of the chosen indicators that lay outside of OGAC guidance.
There are 36 core Ministry of Health Indicators and 17 UNGASS indicators to take into
consideration. These indicators, along with the program level process indicators are all
extremely valuable for tracking the progress of the program and providing our key
partners with needed information. All of the applicable PEPFAR indicators are included
in the FHI M&E plan, and it is accepted M&E principle that the number of indicators
tracked by the sub-partners and FHI would be much greater than the number of core
indicators reported for PEPFAR in order to better monitor implementation, capacity
strengthening, and process-level indicators.



14 Please refer to attached completed quarterly visits.
15 It should be noted that there were many revisions to targets, indicator definitions, and
   Strategic Information Guidance (Finalized June 6, 2005) from OGAC.


                                                                                        28
                                                                            APPENDIX II


One critical issue that needs to be addressed relates to the audit finding that, “In
addition, publications such as the USAID Annual Report and the Emergency Plan’s
Report to Congress contained erroneous information. For example, the Second Annual
Report to Congress states that 5,200 orphans and vulnerable children received support
while in reality less than 300 received support.” USAID worked closely with its strategic
information team at OGAC and with in-country partners to rectify this discrepancy which
all partners involved had recognized. Hence, in the FY2006 country operational plan
submitted in October 2006 a special reference to the matter was made and accepted by
OGAC.

   Recommendation No. 3: We recommend that USAID/Guyana ensure that
   performance indicators and their corresponding targets are developed
   consistently among the various program documents.

USAID agrees with the recommendation and will include the indicators and their
targets in during the FY06 funding allocation process. USAID will then follow-up with
FHI and supported civil society organizations to ensure that there is consistency in
the M&E plan, annual program work plans, and M&E reporting tools.

   Recommendation No.4: We recommend that USAID/Guyana reduce and
   simplify the number of indicators and periodically evaluate performance
   indicators to ensure that all indicators are necessary, relevant and easily
   understood by all concerned.

USAID strongly disagrees with this recommendation. USAID is required to fulfill all
applicable PEPFAR indicators and has a strategic partnership to support the information
needs of the host country government and international declarations made by them (36
core MOH indicators and 17 UNGASS). USAID does, however, agree to annually
evaluate the number and purpose of collected performance, output, and capacity
indicators to ensure that all are necessary and relevant.

Results Reported by FHI and Sub-Grantees Were Inaccurate or Unsupported

There are a great number of disagreements within the information the audit team
reported in this section. USAID requests the methodology of determining data support
so as to build the capacity of its partners to be able to respond to this level of scrutiny.
As it relates to specific determinations, the Mission wishes to comment as follows:
    1.) The audit team sited that, “Central to the reasons why reported results were
          inaccurate was that USAID/Guyana and FHI did not provide adequate guidance
          to the sub-grantees or to the MOH and did not periodically validate reported
          results.”
            a. Response: This is not true. All of the NGOs were trained in M&E and
                 provided with written guidance on reporting. Moreover, several follow up
                 telephone calls and visits were made to the NGOs to provide TA for
                 reporting. Please see attached visit schedule.
    2.) The audit team sited that, “As a result of inaccurate reporting by sub-grantees
          and the MOH, USAID/Guyana could not reliably determine if the program was
          achieving planned outputs and the Mission reported inaccurate information to
          the Office of the U.S. Global AIDS Coordinator and to the Congress.”



                                                                                         29
                                                                           APPENDIX II

           a. Response: This statement reaches a conclusion that is not supported by
               the information provided—not being able to fully validate the reports does
               not necessarily means that the reports were inaccurate.
   3.)   The audit team sited, “There were discrepancies ranging between 21 to 33
         percent between the results reported by FHI and the documented results of the
         number of pregnant women tested for HIV/AIDS at three of the eight MOH sites
         we visited. For example, the site at Bartica Hospital recorded 266 pregnant
         women as having been tested for HIV while FHI reported 216 – a variance of
         23 percent.
           a. Response: The auditors reached this conclusion based on data from the
               lab register at Bartica which was not the source for PMTCT data which is
               actually the ANC register and the counselors’ daily register. The lab
               register is likely to contain data on all HIV tests done for different
               purposes and will not necessarily give a true reflection of the number of
               persons tested;16
   4.)   The audit Cites, “USAID and FHI should have realized that the 5,209 orphans
         and vulnerable children reportedly reached was an error since the total
         estimated number in the entire country is only 4,000.”
           a. Response: The Mission mistakenly reported the number of units of
               services (5209) that were given to OVCs. Later in FY05 the Mission
               along with our strategic information counterpart, corrected the error and
               reported the actual number (289) of OVCs reached during that six month
               period.
   5.)   The audit sites, “FHI did not consistently estimate the number of people
         reached by mass media. “
           a. All Indicators for Mass Media have been eliminated by OGAC given the
               weakness of the indicator.
   6.)   The audit sites, “In addition to the specific problems outlined above, the
         reporting format provided by FHI only contained current period data. No
         cumulative results toward achieving planned outputs were captured. Including
         cumulative results would better help sub-grantees measure progress made
         towards achieving planned outputs.
           a. Response: The is available in the FHI database.
   7.)   The audit sites, “USAID/Guyana did not have a monitoring and evaluation office
         so they relied, in part, on FHI to ensure the quality of reported results.
         However, FHI did not provide necessary guidance and on-site mentoring or
         make periodic visits to verify the accuracy of the progress reports.”
           a. Response: Mentoring was provided through regular field visits and
               telephone contact. We agree that more time should have been spent on
               trying to validate the reports. Based on feedback that FHI received from
               the NGO we were led to believe that they understood all guidelines that
               were issued, but increased training and support has been integrated into
               our FY06 work plan.

   Recommendation No. 5: We recommend that USAID/Guyana ensure that Family
   Health International provides the Ministry of Health and sub-grantees with




16 Background information shared with team on February 24, 2006 by Navindra Persuad.


                                                                                       30
                                                                            APPENDIX II

   training and guidance that ensures the submission of accurate, well-documented
   performance data on current and cumulative progress toward achieving targets.

USAID/GUYANA agrees and will ensure that FHI continues to provide Ministry of
Health and sub-contractors with training and will increase the mentoring and
guidance of such partners to ensure the submission of accurate, well-documented
performance data on current and cumulative progress toward achieving targets.

   Recommendation No. 6: We recommend that USAID/Guyana ensure that Family
   Health International implements a monitoring plan that regularly validates the
   quality of data, including supporting documentation, submitted by all sub-
   grantees.

USAID agrees and will ensure that FHI updates their existing M&E plan and continues to
implement the monitoring plan that regularly validates the quality of data, including
supporting documentation, submitted by all sub-grantees. In addition, FHI has already
initiated quarterly mentoring/site visits to each NGO/FBO partner whereby this process is
conducted. FHI will also continue to work with the Ministry of Health regarding the
validation of PMTCT data collection and necessary training.

Delays in Providing Advances to Sub-Grantees Impeded Program Activities

The audit sites, “Lack of timely funding impeded the sub-grantees’ efforts to achieve the
goals and targets in their work plans and caused them to lose credibility with their
clients.” The Mission disagrees in that the NGOs have not lost their credibility with their
clients and that this speculation is incorrect as they continue to function in their
communities, expand their coverage, and attract support from other donors and
international partners.


The audit sites that “the contractor (Maurice Solomon) shall assure that funds are
available as needed by partner organizations and that funds will not be subject to
administrative delays. However, the sub-grantees did not receive funds in a timely
fashion from Maurice Solomon. Maurice Solomon used an unreasonable method to
provide funds to the sub-grantees.” The Mission wishes only to highlight that the
format /method used by the Accounting Firm was directed in their contract that was
designed and developed by the Contracting Office, USAID/Dominican Republic.
The failure of some NGOs to liquidate in a timely manner, despite numerous
reminders caused submissions to the Dominican Republic to be delayed, resulting
in the late receipt of funds. Thus, it is the defaulters in the liquidation process that
adversely affected the entire liquidation process. The Mission had identified this
problem early on in the contract and is working with the Regional Contracting Office to
rectify the situation. It should be noted that some of the sited delays were not due to
issues regarding the contract with MSC, but delays during the work plan approval
process. The ten new sub-grantees that entered the Emergency Plan program in July
2005 received no advances at all, or only minimal amounts for office expenses and
salaries, until FHI approved their work plans beginning in October 2005. Finally, weak
financial management by some sub-grantees contributed to funding problems since the
sub-grantees submitted ineligible or misclassified costs to MSC in their liquidations,
leading to delays and disallowances.



                                                                                        31
                                                                            APPENDIX II

The audit goes on to say that, “Voluntary Youth Corps was unable to make any
payments between November 4, 2005 and December 1, 2005 since no funds were
received for October or November 2005.” It needs to be noted that this delay occurred
because the NGO was required to adjust its proposed activities based on the technical
review. The resubmission of the document by the NGO was submitted late, hence the
receipt of funds in December 2005.

The audit sites another specific example, saying that, “Comforting Hearts had a bank
balance of less than $2, as of February 7, 2006, because it did not receive program
funds in January 2006.” Comforting Hearts received program funds on February 8th in
the amount of $1,228,200G. Such delays, however challenging, do not hinder the
progress of the program entirely. Prior to this installment Comforting Hearts was able to
continue working as a number of activities were conducted during the month of January,
such as therapeutic sessions, sensitization sessions among pregnant women and
employees, home based care (HBC) training, and OVC meetings with Regional officials
in two districts.

       Recommendation No. 7: We recommend that USAID/Guyana arrange to
       modify the contract with Maurice Solomon & Company to better ensure that
       sub-grantees receive adequate funds in a timely manner.

USAID agrees and has already issued a travel authorization and request for assistance
from our Regional Contracting and Control Office in Santo Domingo. This site visit is
planned for the second quarter of FY2006.

Several Sub-Grantees Suffered from Weak Financial Management Practices

The mission agrees that there are indeed institutional weaknesses that need to be
addressed, but asks that the audit also take into consideration the context and civil
society environment in Guyana mentioned later on in the section regarding sustainability
planning. One specific item the audit team sited was that, “Problems such as those
described above have resulted in Central Islamic Organization of Guyana and three
other sub-grantees being placed on a 3-month probation period.” It is the practice of
USAID to conduct a rolling assessment of the institutional capacity of the NGOs during
the proposal review process and throughout the implementation cycle. Once it is
determined that specific NGOs lack the requisite institutional capacity they are placed on
diverse probationary periods. Such decisions are based on our knowledge of the NGOs,
the accuracy and timeliness of their reporting, and the technical evaluation of their
programs. Such decisions are made by a support team made up of key staff from
USAID, GHARP, and MSC. Hence, the Central Islamic Organization of Guyana,
Roadside Baptist Church, Reslocare, and Swingstar, were placed on probation in
October 2005. In January 2006, the Central Islamic Organization of Guyana and
Roadside Baptist Church had their probationary periods extended for another three
months.

This process is set in place to prevent exactly the type of abuses the audit team sited
(fraud, waste) and such a process of review, support, and resolution should be seen as
a strong capacity-building and financial accountability strategy, not a negative activity as
the audit team inferred when saying, “Sub-grantees on probation were subject to extra
scrutiny by Maurice Solomon’s financial analysts when they reviewed monthly
liquidations.” The Mission agrees that weak financial practices result in disallowance


                                                                                         32
                                                                            APPENDIX II

and delays in receiving funds and the ability to implement the program, but the Mission
strictly respects our responsibility to account for funds distributed and hence, strictly
follows the contractual obligations while we strengthen the NGO financial management
system in order to correct the weaknesses.

    Recommendation No. 8: We recommend that USAID/Guyana obtain evidence
    that Maurice Solomon and Company has provided financial management training
    to sub-grantees so that the monthly liquidations can be completed accurately and
    on schedule.

USAID agrees with the recommendation. MSC has since held training for 16 financial
representatives from the NGOs on the March 30, 2006.17 MSC will hold annual training,
will continue onsite mentoring and support during the USAID/GHARP/MSC NGO
quarterly visits, and will continue their monthly on-site NGO support.

Sub-Grantees Do Not Have Plans for Sustainability

The audit team found that, “ The President’s Emergency Plan aims to develop
sustainable HIV/AIDS health care networks, but none of the 11 sub-grantees we visited
had developed detailed plans to sustain prevention and care activities once USAID
funds are no longer available. Sustainability has not yet been adequately addressed
because a higher priority has been placed on expanding and scaling up activities during
the first two years of Emergency Plan activities in Guyana. During the remainder of the
program, progressively more attention needs to be devoted to sustainability to better
ensure that these activities will continue after the cessation of U.S. Government
funding.”

USAID agrees with the principle that sustainability of these organizations is critical. This
goal cannot be considered in isolation though as environment context is absolutely
necessary in determining plans for sustainability. Three of the most significant
contextual issues include:

    •   Indebted Poor Country (HIPC). Roughly 35% of the population lives below the
        poverty level.
    •   A new World Bank study has found that Guyana ranks the highest in the skilled
        emigration rate from developing countries, amounting to 89%. Guyana is
        followed by Jamaica, 85.1%; Haiti, 83.6%; Suriname, 47.9%; Ghana, 46.9%;
        Mozambique, 45.1%. These emigrants are from a diverse professional
        background, from entrepreneurs and financial experts to health care workers and
        teachers. Today, there are an estimated 700,000 Guyanese living abroad.
    •   Civil society organizations did not exist in Guyana until 1997 when political
        reform was instituted. The effectiveness of these organizations is frequently
        hampered by limited technical and organizational capacity.

The first, substantial funding that health-focused NGOs received was from USAID in
2001, and the largest award did not exceed $25,000USD. Over the last five years,
USAID has worked to increase the capacity of these same NGOs, and through PEPFAR



17 Please refer attached training register


                                                                                         33
                                                                              APPENDIX II

has taken on an additional eleven, but developing a loose group of very committed
community members into trained service providers with basic institutional capacity is a
long-term commitment, let alone developing them as self-sufficient institutions.

Given the focus of PEPFAR (USAID/Guyana’s only health funding) being service
delivery, and more specifically treatment and the services that lead to treatment,
sufficient funding is not allocated within the program to adequately address all of the
capacity building needs of the program implementers. Taking these factors into
consideration, USAID continues to address institutional capacity issues, while continuing
to work within the PEPFAR mandate.

   Recommendation No. 9: We recommend that USAID/Guyana coordinate with
   Family Health International and Maurice Solomon and Company to ensure that
   its sub-grantees develop strategies for the sustainability of their Emergency Plan
   activities, including the incorporation of institutional capacity building activities
   and the development of exit plans.

USAID disagrees with the recommendation, but suggests rather that USAID work with
FHI and Maurice Solomon to develop a clear exit strategy for FHI/GHARP. As outlined
by OGAC, "...grant language for international NGO partners will require them to take
steps to build local capacity, and the Emergency Plan will begin to require such partners
to develop "exit strategies" - plans for reducing their own role and devolving
responsibility to local people and organizations on a reasonable time frame.18"

This strategy will be based on increasing the capacity of indigenous organizations to be
sustainable implementers of the program with limited international technical assistance.

Did the treatment activities supported by USAID/Guyana through grants,
cooperative agreements, and contracts progress as expected towards planned
outputs?

Procurement of Antiretroviral Drugs Was Delayed

USAID wants to provide additional context and correction to the section of the audit
report pertaining to the procurement of antiretroviral drugs given the critical nature of this
responsibility. First, and foremost, it must be clarified, that USAID/Guyana plays no role
in clinical treatment.     USAID/Guyana’s responsibility lies in the procurement of
antiretroviral drugs. The entire procurement process is lengthy and includes a large
number of actors and numerous activities including:

   •   government approval of HIV/AIDS treatment regimens
   •   quantification/forecasting
   •   verification of drug registration with the country regulatory authority
   •   negotiation of drug prices and selection of a procurement services agent
   •   preparation of source/origin waivers/purchase approval and purchase orders
   •   arranging procurement with the procurement services agent who in turn
       processes actual drug procurement with respective drug manufacturers and;


18 OGAC Guidance Annual Report 2006; pp 96-97.


                                                                                           34
                                                                             APPENDIX II

   •   delivery of drugs to the country, customs clearance and delivery to the
       designated country drug distribution facility.

At any point in the process, delays are possible and are frequently encountered. It is not
unusual for the entire process to take 6 months or more, particularly for a country’s initial
USAID HIV/AIDS procurement.

In the rapidly changing environment of AIDS drugs, changes in treatment protocols can
and do occur. In Guyana, the MOH has not clearly articulated a process for changing
protocols. Delays in the revisions to treatment guidelines have therefore delayed
procurement activities since the list of drugs to be procured is determined by the
protocols. Once the drugs are identified, consumption estimates for all drugs and all
dosages must be calculated to develop forecasted national requirements. The HIV
information system is virtually non-existent in Guyana and different sources report
different data on the same variables. Thus, reaching agreement on important
assumptions for scaling up and percentage of patients receiving the various treatment
regimens was a time consuming activity. In the case of AIDS drugs it almost goes
without saying that forecasts must be as accurate as possible. Under-estimation can
result in interruptions in patient treatment: over-estimation estimating can result in waste
of very costly medicines. Before any drugs can be imported into Guyana, they must be
registered. The list of registered drugs in Guyana has not been updated in several years
and special waiver letters from the MOH needed to be obtained before drugs could be
ordered. The proper authorities were clarified and pursued and the waivers were
obtained in a reasonable timeframe.

After drugs and dosages have been identified and the quantities forecasted, drug
pricing, supplier(s) and estimated delivery dates are required. It is worth noting that
Guyana is not classified as a least developed country (LDC) and as such LDC
preferential pricing was not readily available. However, the program was able to
negotiate LDC pricing for many of the drugs and favorable pricing for the remainder, thus
maximizing the quantities of drugs procured with the available funds. The relatively tight
global market for certain ARVs complicates timely procurement and this definitely has
affected the Guyana procurement process. During the time period in question there was
quite variable availability of some of the ARVs, particularly from the multinational “brand
name” sources. The occasional gaps between demand and short term availability were
aggravated by the lack of reliable data on actual global demand and the constantly
changing situation with standard treatment protocols in PEPFAR focus countries
including Guyana. GHARP was able to obtain products for Guyana in spite of these
constraints. After suppliers and prices are identified, USAID requires source and origin
waiver and/or purchase approval prior to expenditure of funds.

The audit sites, “Treatment activities supported by USAID/Guyana did not progress as
expected due to delays in procuring ARV drugs.” USAID disagrees with this conclusion
since there were no treatment delays, scaling up of treatment, or interruption in
treatment resulted from the procurement process. Previous to the arrival of pediatric
ARVs procured by GHARP, no pediatric formulations were available. Children were
treated with locally manufactured (New GPC) adult solid oral formulations that were
suspended in measured amounts of water and withdrawn in syringes to obtain
calculated dosages. Frustrated partners desiring pediatric formulations had highly
distorted expectations of the process and timeframe needed to procure drugs under
USAID contract, with the apparent belief that all drugs could be delivered to the clinics in


                                                                                          35
                                                                            APPENDIX II

a matter of a few weeks despite the lack of treatment protocols, consumption information
and quantification, waiver process or manufacturer availability of the needed ARVs.
However, no patients were denied treatment as a result of any delays in the
procurement process. We do recognize that frustration was created by this unavoidably
time consuming process.

The audit sites, “The 2004 and 2005 country operational plans stated that MSH was
responsible for procuring pediatric formulations of ARVs and second-line branded drugs
for both HIV infected children and adults.” It should be clarified that no money for the
actual purchase of drugs passed through MSH as the purchase was made by FHI.

The audit sites, “The first batch of pediatric ARV drugs was ordered on May 2, 2005 and
was received on May 30, 2005. This was an emergency procurement to treat 15
children for one month and another 15 children for two months. Additional orders
intended to treat 60 children were placed on June 30 and September 9, 2005. The
September order was received between November 27, 2005 and January 21, 2006. The
second line ARV drugs, intended to treat 78 people, were not ordered until January 13,
2006 and were not fully received until February 20, 2006. The May and June orders
were from a U.S. source and origin and arrived within a month. Because U.S. source
and origin drugs were deemed to be too costly, the September and January orders
originated from the Netherlands and took somewhat longer to arrive.”19

The audit sites, “Interruptions in the supply of ARV drugs may literally be life
threatening. To cope with the shortages caused by the procurement delays described
above, MSH borrowed pediatric ARV drugs from Mercy Hospital from October 25, 2005
to November 23, 2005. It borrowed second line ARV drugs from November 17, 2005 to
March 13, 2006. Prior to June 2005, MSH also gave children reduced dosages of adult
ARV drugs, but this resulted in the children receiving incorrect dosages.” It is critical to
note that, MSH has never had any role in treating children in Guyana at any time.
Prior to GHARP procurement of pediatric formulations, there were only adult
formulations available in Guyana. The pediatric technical working group under OGAC
presented the current gold standard in pediatric dosing in developing countries.20 It
recommends giving ½ tablets, what could be considered a ‘reduced dosage of adult
ARV drugs.’ Many protease inhibitors are only available in tablet or capsule form. Even
though MSH, nor any USAID program, is active in treatment programs, this practice is
acceptable and even recommended in resource-constrained settings.

The need to borrow drugs was due to an inaccurate assumption provided by
stakeholders during the quantification activity. There was an assumption that far more
patients would be converted from liquid to solid formulation than actually occurred. This
resulted in borrowing two liquid preparations. Utilization patterns are somewhat
unpredictable and a system to share inventory between partners was developed for this
reason. In this instance GHARP borrowed drugs from CRS. In early 2006, CRS
borrowed other drugs from GHARP.




19 Please refer to procurement process summary attached
20 Pediatric Antiretroviral and Cotrimoxazole Dosing, September 2004, CDC and Columbia
   School of Public Health.


                                                                                         36
                                                                                  Appendix III


             Comparison of Planned, Reported, and Actual
            Prevention and Care Outputs for Fiscal Year 2005
                Output                  Country       Outputs         Verified       Target
                                      Operational     Reported                       Met?21
                                      Plan Target      by FHI

 1. Community Outreach HIV/AIDS           18             26             14             No
 Prevention Programs that Promote
 Abstinence and/or Being Faithful

 2. Individuals Reached through         10,000          3,306       Unsupported        No
 Community Outreach Prevention
 Programs that Promote Abstinence
 and/or being Faithful

 3. Individuals Trained to promote        300            82         Unsupported        No
 HIV/AIDS Prevention Programs
 through Abstinence and/or Being
 Faithful

 4. Community Outreach HIV/AIDS           18             13             14             No
 Prevention Programs that Promote
 Abstinence (A Subset of Abstinence
 and/or Being Faithful)

 5. Individuals Reached through         10,000           410        Unsupported        No
 Community Outreach that Promote
 HIV/AIDS through Abstinence (A
 Subset of Abstinence and/or Being
 Faithful)

 6. Individuals Trained to Promote        300            91         Unsupported        No
 HIV/AIDS Prevention through
 Abstinence (A Subset of Abstinence
 and/or Being Faithful)

 7. Community Outreach HIV/AIDS        No defined        16             12             Not
 Prevention Programs that are not        target                                    determined
 Focused on Abstinence and Being
 Faithful

 8. Individuals Reached with           No defined      35,150       Unsupported        Not
 Community Outreach Prevention           target                                    determined
 Programs that are not Focused on
 Abstinence and Being Faithful




21 In cases where the reported amount was less than the planned target and the reported
    amount could not be verified (unsupported), we classified the target as not being met. Cases
    where the reported amount was greater than the planned target and the reported amount
    could not be verified were classified as “Not Determined.”


                                                                                              37
                                                                                    Appendix III

                Output                   Country        Outputs         Verified       Target
                                       Operational      Reported                       Met?21
                                       Plan Target       by FHI

 9. Individuals Trained in Other          10022           364         Unsupported        Not
 HIV/AIDS Prevention Services                                                         Determined


 10. Pregnant Women provided with         10,200         7,960          7,96023           No
 Prevention of Mother-To-Child
 Transmission (PMTCT) services,
 including counseling and testing

 11. Service Outlets Providing the          42             46             43             Yes
 Minimum Package of PMTCT
 Services

 12. Health Care Workers Trained or        100             75             75              No
 Re-Trained in the Provision of
 PMTCT Services

 13. Individuals Provided With HIV-       2,500           742             80              No
 Related Palliative Care 24

 14. Service Outlets Providing HIV-         9              8               6              No
 Related Palliative Care (excluding
 TB/HIV)

 15. Individuals Trained to Provide        100            127             146            Yes
 HIV-Related Palliative Care
 (excluding TB/HIV)

 16. Individuals Who Received             6,000          10,546        10,54626          Yes
 Counseling and Testing for HIV 25

 17. Service Outlets Providing              18             15             41             Yes
 Counseling and Testing Services




22 Even though there was no target defined in the country operational plan, Mission officials and
   FHI believe that the target was 100.

23 While testing at individual hospitals and clinics selected revealed large variances, the net
variance for all eight hospital and clinics combined was one percent. We included some
examples of the large variances at some of the hospitals and clinics in the report.

24 This target was stated inconsistently (as 2,500 and 2,617) within the country operational plan.

25 This target was stated inconsistently (as 1,600 and 6,000) within the country operational plan.
   However, both the Mission and FHI believed that the target was 6,000.

26 While testing at individual hospitals and clinics selected revealed large variances, the net
variance for all eight hospitals and clinics combined was two percent. We included some
examples of the large variances at some of the hospitals and clinics in the report.


                                                                                                38
                                                                            Appendix III

               Output                     Country     Outputs    Verified      Target
                                        Operational   Reported                 Met?21
                                        Plan Target    by FHI

18. Individuals Trained in Counseling      100          88         95           Yes
and Testing

19. Orphans and Vulnerable Children        560         5,209       289          No
(OVC) Served by the OVC Programs



20. Orphans and Vulnerable Children         12           9          6           No
Programs

21. Providers/Caretakers Trained in        100          92         57           No
Caring for Orphans and Vulnerable
Children




                                                                                        39
                                                                                      Appendix IV


    Local Organizations Implementing Emergency Plan Activities in Guyana

       Sub-Grantees              Emergency Plan Components

Artistes In Direct Support     Prevention (abstinence and/or being faithful), other prevention

Central Islamic Organization   Prevention (abstinence and/or being faithful)
of Guyana

Comforting Hearts              Prevention (abstinence and/or being faithful), other prevention,
                               palliative care, counseling and testing, and orphans and
                               vulnerable children,

Guyana Responsible             Prevention (abstinence and/or being faithful), other prevention,
Parenthood Association         counseling and testing, and palliative care

Help and Shelter               Other prevention, and systems strengthening

Hope for All                   Prevention (abstinence and/or being faithful), other prevention,
                               and palliative care

Hope Foundation                Prevention (abstinence and/or being faithful), other prevention,
                               palliative care, counseling and testing, and orphans and
                               vulnerable children

Lifeline Counseling Services   Palliative care, counseling and testing, and orphans and
                               vulnerable children

Linden Care Foundation         Prevention (abstinence and/or being faithful), palliative care,
                               counseling and testing, and orphans and vulnerable children

Love & Faith Outreach          Prevention (abstinence and/or being faithful) and palliative care

Mibicuri Youth Development     Prevention (abstinence and/or being faithful) and other
Group                          prevention

RESLOCARE                      Prevention (abstinence and/or being faithful), other prevention,
                               and orphans and vulnerable children

Ribbons of Life                Prevention (abstinence and/or being faithful) and other
                               prevention

Roadside Baptist Church        Prevention (abstinence and/or being faithful) and orphans and
                               vulnerable children

St. Francis Community          Orphans and vulnerable children
Developers

Swing Star/FACT                Other prevention, and palliative care



                                                                                                   40
                                                                                  Appendix IV

      Sub-Grantees             Emergency Plan Components

The Network of Guyanese     Palliative care
Living with HIV/AIDS (G+)

Volunteer Youth Corps       Prevention (abstinence and/or being faithful), other prevention,
                            palliative care, and orphans and vulnerable children.

Youth Challenge Guyana      Prevention (abstinence and/or being faithful), other prevention,
                            counseling and testing, and orphans and vulnerable children.




                                                                                               41
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
            Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
